   Department of Health and Human Services
                      OFFICE OF

                 INSPECTOR GENERAL





     PENNSYLVANIA GENERALLY

  CLAIMED ALLOWABLE COMMUNITY

SERVICES BLOCK GRANT RECOVERY ACT

   COSTS FOR COMMUNITY ACTION

  PROGRAM OF LANCASTER COUNTY



     Inquiries about this report may be addressed to the Office of Public Affairs at
                              Public.Affairs@oig.hhs.gov.




                                                     Stephen Virbitsky

                                                  Regional Inspector General


                                                         November 2013

                                                         A-03-12-00250

                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating

 divisions will make final determination on these matters.

                                  EXECUTIVE SUMMARY


BACKGROUND


The Community Opportunities, Accountability, and Training and Educational Services Act of
1998, P.L. No.105-285 (the CSBG Act), reauthorized the Community Services Block Grant
(CSBG) program to provide funds to alleviate poverty in communities. Within the U.S.
Department of Health & Human Services, the Administration for Children and Families (ACF),
Office of Community Services, administers the CSBG program.

The CSBG program funds a State-administered network of more than 1,000 local Community
Action Agencies (CAAs) that create, coordinate, and deliver programs and services to low-
income Americans. The CAAs provide services and activities addressing employment,
education, housing, nutrition, emergency services, health, and better use of available income.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, provided an additional $1 billion to ACF for the CSBG program. Recovery
Act funds for the CSBG program were distributed to CAAs using an existing statutory formula.
As with annually appropriated CSBG funds, Recovery Act funds were to be used to reduce
poverty, revitalize low-income communities, and help low-income Americans. CSBG services
funded by the Recovery Act were to be provided on or before September 30, 2010.

Section 676(a) of the CSBG Act requires each State to designate an appropriate State agency to
act as the lead agency for carrying out the State’s CSBG activities. The Pennsylvania
Department of Community and Economic Development (State agency) acted as the lead agency
to carry out State activities for the CSBG program. The State agency was responsible for
approving CAA Recovery Act grant applications and monitoring the CAAs for compliance with
program requirements. The State agency received $42,332,166 in Recovery Act funds for
Pennsylvania’s CSBG program.

Community Action Program of Lancaster County (Lancaster), a nonprofit organization, provides
services to individuals and families in Lancaster County, Pennsylvania. The State agency
awarded Lancaster $655,800 in regular CSBG funds for the period January 1, 2009, through
December 31, 2010, and $1,036,699 in CSBG Recovery Act funds for the period July 1, 2009,
through September 30, 2010.

OBJECTIVE

Our objective was to determine whether selected CSBG Recovery Act costs that the State agency
claimed for Lancaster were allowable under the terms of the grant and applicable Federal
regulations.

SUMMARY OF FINDINGS

Of the $706,958 in CSBG Recovery Act costs that the State agency claimed for Lancaster and
that we reviewed, $704,145 was allowable under the terms of the grant and applicable Federal
regulations. However, the State agency claimed $2,813 in unallowable entertainment costs for
Lancaster.

                                                i
The work plan budget proposal Lancaster submitted to the State agency included allowable
educational field trips and other similar costs. However, Lancaster charged as field trips the
unallowable entertainment costs of $2,813 for amusement park admission, sports events, meals,
and rentals. Lancaster did not itemize the proposed costs in its work plan or when the incurred
costs were claimed. Therefore, the State agency could not readily identify the incurred costs as
unallowable entertainment costs. Further, Lancaster did not follow its accounting policy for
segregating unallowable costs to ensure these costs were not charged to Federal awards.

In addition, Lancaster did not maintain supporting documentation that it had monitored
subgrantees providing professional services, as required.

RECOMMENDATIONS

We recommend that the State agency:

   •	 return to the Federal Government $2,813 used for unallowable costs and

   •	 ensure that Lancaster follows its accounting policy for segregating unallowable costs and
      for documenting its monitoring activities of subgrantees.

LANCASTER COMMENTS

Lancaster said that, in the past, such costs have been allowable for other U.S. Department of
Health & Human Services grants. However, Lancaster agreed with the recommendations and
stated that its Accounts Payable staff has been instructed to review costs for unallowability and
cost matching. Also, Lancaster said that in the future it will submit appropriate documentation
of its monitoring activities to the State and/or Federal agency.

STATE AGENCY COMMENTS

The State agency agreed with our recommendations and described the action it has taken to
address them.




                                                 ii
                                                  TABLE OF CONTENTS


                                                                                                                                      Page

INTRODUCTION ........................................................................................................................1 


          BACKGROUND ..............................................................................................................1 

              Community Services Block Grant Recovery Act Program ..................................1 

              Pennsylvania Department of Community and Economic Development ..............1 

              Community Action Program of Lancaster County…. ..........................................1 

              Federal Requirements ...........................................................................................1 


          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................2 

               Objective ...............................................................................................................2 

               Scope .....................................................................................................................2 

               Methodology .........................................................................................................2 


FINDINGS AND RECOMMENDATIONS ................................................................................3 


          UNALLOWABLE ENTERTAINMENT COSTS CLAIMED ........................................3 


          LACK OF DOCUMENTATION FOR MONITORING PROGRAMS ..........................4 


          RECOMMENDATIONS ..................................................................................................4 


          LANCASTER COMMENTS ...........................................................................................4 


          STATE AGENCY COMMENTS .....................................................................................5 


APPENDIX A: LANCASTER COMMENTS.............................................................................6 


APPENDIX B: STATE AGENCY COMMENTS ......................................................................8 





                                                                    iii
                                      INTRODUCTION


BACKGROUND

Community Services Block Grant Recovery Act Program

The Community Opportunities, Accountability, and Training and Educational Services Act of
1998, P.L. No.105-285 (the CSBG Act), reauthorized the Community Services Block Grant
(CSBG) program to provide funds to alleviate poverty in communities. Within the U.S.
Department of Health & Human Services, the Administration for Children and Families (ACF),
Office of Community Services administers the CSBG program. The CSBG program funds a
State-administered network of more than 1,000 local Community Action Agencies (CAAs) that
create, coordinate, and deliver programs and services to low-income Americans. The CAAs
provide services and activities addressing employment, education, housing, nutrition, emergency
services, health, and better use of available income.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, provided an additional $1 billion to ACF for the CSBG program. Recovery
Act funds for the CSBG program were distributed to CAAs using an existing statutory formula.
As with annually appropriated CSBG funds, Recovery Act funds were to be used to reduce
poverty, revitalize low-income communities, and help low-income Americans. CSBG services
funded by the Recovery Act were to be provided on or before September 30, 2010.

Pennsylvania Department of Community & Economic Development

Section 676(a) of the CSBG Act requires each State to designate an appropriate State agency to
act as the lead agency for carrying out the State’s CSBG activities. The Pennsylvania
Department of Community and Economic Development (State agency) acted as the lead agency
to carry out State activities for the CSBG program during our audit period. The State agency
was responsible for approving CAA Recovery Act grant applications and monitoring the CAAs
for compliance with program requirements. The State agency received $42,332,166 in Recovery
Act funds for Pennsylvania’s CSBG program.

Community Action Program of Lancaster County

Community Action Program of Lancaster County (Lancaster), a nonprofit organization, provides
services to individuals and families in Lancaster County, Pennsylvania. The State agency
awarded Lancaster $655,800 in regular CSBG funds for the period January 1, 2009, through
December 31, 2010, and $1,036,699 in CSBG Recovery Act funds for the period July 1, 2009,
through September 30, 2010.

Federal Requirements

Section 678D(a)(1)(B) of the CSBG Act requires that States receiving CSBG funds ensure that
cost and accounting standards of the Office of Management and Budget (OMB) apply to a CAA.
Nonprofit CAAs are subject to 45 CFR part 74. Federal regulations (45 CFR § 74.27(a)) state
that the allowability of costs will be determined in accordance with 2 CFR part 230 (OMB
Circular A-122), Cost Principles for Non-Profit Organizations.

                                               1

This review is one of a series of Office of Inspector General reviews to provide oversight of
Recovery Act funds.

OBJECTIVE, SCOPE AND METHODOLOGY

Objective

Our objective was to determine whether selected CSBG Recovery Act costs that the State agency
claimed for Lancaster were allowable under the terms of the grant and applicable Federal
regulations.

Scope

We reviewed $706,958 of the $1,036,699 costs claimed by Lancaster under its CSBG Recovery
Act agreement with Pennsylvania for the period July 1, 2009, through September 30, 2010. This
review is part of a series of audits that provide oversight of funds provided by the Recovery Act.
We did not perform an overall assessment of Lancaster’s internal control structure. Rather, we
reviewed only the internal controls that pertained to our objective.

We performed our fieldwork at Lancaster’s administrative office in Lancaster, Pennsylvania,
during March and April 2012.

Methodology

To accomplish our objective, we:

   •	 reviewed relevant Federal laws, regulations, and guidance;

   •	 reviewed the terms and conditions of the CSBG Recovery Act agreement between

      Lancaster and the State agency for July 1, 2009, through September 30, 2010;


   •	 reviewed Lancaster’s and the State agency’s monitoring reports for calendar years 2009,
      2010, and 2011;

   •	 reviewed Lancaster’s budget justification for the Recovery Act funding and general
      ledger for the grant period;

   •	 reviewed Lancaster’s policies and procedures related to the CSBG Recovery Act

      program;


   •	 reviewed Lancaster’s by-laws, minutes from the Board of Directors meetings, and 

      composition of its Board;


   •	 reconciled Lancaster’s CSBG Recovery Act financial status report for the year ended
      September 30, 2010, to its accounting records;

   •	 judgmentally selected 55 transactions totaling $706,958 based on risk factors including
      whether the transactions:

                                                2

           o were high dollar,

           o were for items usually considered unallowable (e.g., entertainment, memberships), or

           o were recorded near the end of the grant period or outside of the grant period; and

      •    discussed findings with Agency officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

                                FINDINGS AND RECOMMENDATIONS

Of the $706,958 in CSBG Recovery Act costs that the State agency claimed for Lancaster and
that we reviewed, $704,145 was allowable under the terms of the grant and applicable Federal
regulations. However, the State agency claimed $2,813 in unallowable entertainment costs for
Lancaster.

The work plan budget proposal Lancaster submitted to the State agency included allowable
educational field trips and other similar costs. However, Lancaster charged as field trips the
unallowable entertainment costs of $2,813 for amusement park admission, sports events, meals,
and rentals. Lancaster did not itemize the proposed costs in its work plan or when the incurred
costs were claimed. Therefore, the State agency could not readily identify the incurred costs as
unallowable entertainment costs. Further, Lancaster did not follow its accounting policy for
segregating unallowable costs to ensure these costs were not charged to Federal awards.

In addition, Lancaster did not maintain supporting documentation that it had monitored
subgrantees providing professional services, as required.

UNALLOWABLE ENTERTAINMENT COSTS CLAIMED

Federal cost principles state that costs of entertainment, including amusement, diversion, and
social activities and any costs directly associated with such costs (such as tickets to shows or
sports events, meals, lodging, rentals, transportation, and gratuities) are unallowable (2 CFR
part 230, App. B.14). 1

Lancaster's Accounting & Financial Policies and Procedures Manual (policy manual), page 107,
states that accounting personnel will be familiar with the allowability of costs provisions of
Attachment B of OMB Circular A-122 and that unallowable costs must be segregated from
allowable costs in the general ledger to assure that unallowable costs are not charged to Federal
awards.



1
    OMB Circular A-122, Cost Principles for Non-Profit Organizations, was relocated to 2 CFR part 230.

                                                         3

Lancaster charged $2,813 to the CSBG Recovery Act program for entertainment costs that were
directly associated with amusement park admission, sports events, meals, and rentals. The
entertainment costs consisted of $2,420 related to amusement park expenditures and $393
associated with sporting events and meals. Although field trips and other related costs were
included in the work plan submitted to the State agency, Lancaster did not follow its
accounting policy for charging costs to Federal awards. That is, Lancaster did not identify these
costs as unallowable entertainment costs or segregate them from allowable costs in the general
ledger to ensure that the unallowable costs were not charged to a Federal award.

LACK OF DOCUMENTATION FOR MONITORING PROGRAMS

Federal administrative requirements state that “recipients are responsible for managing and
monitoring each project, program, subaward, function or activity supported by the award”
(45 CFR § 74.51 (a)).

Lancaster’s policy manual, pages 102-103, states that, if Lancaster utilizes Federal funds to make
sub-awards, it will assign one employee to monitor each subgrantee to ensure that the subgrantee
is in compliance with Federal laws and regulations and the provisions of the subaward. The
assigned employee is also responsible for documenting the monitoring activities.

Lancaster claimed $100,000 for professional services provided by a subgrantee for the CSBG
Recovery Act Program. However, Lancaster did not document any monitoring activities it
performed to show how it ensured that the subgrantee was in compliance with the goals of the
program and applicable rules and regulations. Because Lancaster did not follow its policy for
documenting monitoring activities, Lancaster was unable to demonstrate that it had adequately
monitored the subgrantee.

RECOMMENDATIONS

We recommend that the State agency:

   •	 return to the Federal Government $2,813 used for unallowable costs and

   •	 ensure that Lancaster follows its accounting policy for segregating unallowable costs and
      for documenting its monitoring activities of subgrantees.

LANCASTER COMMENTS

Lancaster said that, in the past, such costs have been allowable for other U.S. Department of
Health & Human Services grants. However, Lancaster agreed with the recommendations and
stated that its Accounts Payable staff has been instructed to review costs for unallowability and
cost matching. Also, Lancaster said that in the future it will submit appropriate documentation
of its monitoring activities to the State and/or Federal agency.

The complete text of Lancaster’s comments is included as Appendix A.




                                                 4

STATE AGENCY COMMENTS

The State agency agreed with our recommendations and described the action it has taken to
address them.

The complete text of the State agency’s comments is included as Appendix B.




                                              5

                          APPENDIX A: LANCASTER COMMENTS





September 17, 2013


Mr. Stephen Virbitsky
Regional Inspetor General for Audit Services
150 South Independence Hall West, Suite 316
Philadelphia, PA 19106


Re: Report Number: A-03-12-00250


Dear Sir/Madame:


We are writing you in response to the above-referenced letter. Encloserd please find our comments.


Should you have any questions, or require more information, please contact me at 717-299-7388
extension 3018, or via email at fgatti@caplanc.org.


Sincerely,




Francis M. Gatti
Chief Financial Officer


Enclosure




                                                 6

Mr. Stephen Vribitsky
Regional Inspector General, HHS
September 17, 2013


Finding: Unallowable entertainment costs claimed. The Community Action Program of Lancaster
County claimed entertainment costs against the CSBG Recovery Act grant totaling $2,813.
Background: The Recovery Act grant was used in part to maintain relationships with children who were
enrolled in the Head Start Program whose parents were identified as substance abusers. These
activities were designed to maintain the benefits of the Head Start Program for this group of children
throughout the summer of 2010, which extended their "Head Start year". The costs in question
consisted of admissions to amusement parks, skating rinks, sporting events and meals for this group of
children. Similar costs in prior years were considered allowable for other grants administered by the US
Department of Health and Human Services.
Recommendation: Return to the Federal Government unallowable costs totaling $2,813.
Response: We agree with the recommendation. We have implemented the following changes to our
procedures:
    1.	 Accounts Payable procedures. Accounts Payable staff has been trained on the recognition of
        unallowable costs such as entertainment, meals and sporting events. This results in further
        review of these types of costs to ensure that there is specific, written allowance from the
        funding source prior to charging these costs to Federal awards.

    2.	 Program management. When developing the work plan and program narratives in support of
        applications for funding, our program managers are made aware of potential areas of
        disallowance, and are required to either seek specific allowance from the funding source for
        costs that are generally unallowable, or to find other non-Federal sources of funding for the
        costs. Unallowable costs cannot be used for required match, regardless of the source.

Recommendation: Ensure that CAP Lancaster follows its accounting policy for segregating unallowable
costs and for documenting its monitoring activities of sub-grantees.
Response: We agree with the recommendation. In the future, if CAP Lancaster uses a sub-grantee to
carry out program objectives, we will submit copies of the documentation of the monitoring activities to
the State and/or Federal agency. The documentation of the monitoring will be reported on the attached
form or a similar form.




                                                     7

                       APPENDIX B: STATE AGENCY COMMENTS


pennsylvania
DEPARTMENT OF COMMUNITY
AND ECONOMIC DEVELOPMENT



November 4, 2013


Mr. Stephen Virbitsky
Regional Inspector General
For Audit Services
U.S. Department of Health and Human Service
Office of Inspector General
Public Ledger Building, Suite 316
150 S. Independence Mall West
Philadelphia, PA 19106

RE: Report Number A-03-12-00250

Dear Mr. Virbitsky:

The Pennsylvania Department of Community and Economic Development (DCED), Center for
Community Services has received and reviewed your report on the monitoring conducted by
your office on Pennsylvania’s American Recovery and Reinvestment Act (ARRA) Community
Services Block Grant Program. Your monitoring included a review of records from the
Community Action Program (CAP) of Lancaster County, a non-profit organization which provides
services to individuals and families in Lancaster Cou8nty, Pennsylvania.

Your review of CAP Lancaster’s records produced the following finding: Of the $706,958.00
examined, a total of $704,145.00 was allowable under the terms of the grant, however, a total
of $2,813.00 was claimed for unallowable entertainment costs that were directly associated
with amusement park admission, sporting events, meals and rentals. Your monitoring further
revealed that CAP of Lancaster did not follow their own accounting policy to identify these costs
as unallowable and therefore failed to segregate the costs from allowable expenditures. Your
office’s recommendation is that CAP of Lancaster returns the allowable costs of $2,813.00 to
the Federal government. Both the CAP of Lancaster and DCED agree with this
recommendation. Furthermore, CAP of Lancaster will make every effort in the future to assure
that their fiscal office adheres to the guidelines in OMB Circular A-122 and the CSBG statute.

Your monitoring also identifies that the CAP of Lancaster committed $100,000.00 for
professional services under this contract for services to be provided by a sub-grantee agency.
However, CAP of Lancaster failed to document any monitoring activities to show it ensured that
these activities were carried out by their sub-grantee. CAP of Lancaster agrees with this
finding and will take steps to ensure that any future sub-contractual arrangements will be
appropriately monitored and documented.

                                        Community          Commonwealth        Harrisburg     Tel: 717.787.1984
                                        Affairs and        Keystone Building   Pennsylvania   Fax: 717.214.5399
                                        Development        400 North Street    17120-0225     866-GO-NEWPA|newPA.com
                                                           4th Floor




                                                      8

Mr. Stephen Virbitsky
November 4, 2013
Page 2

DCED has been in contact with CAP of Lancaster to verify their responses to your monitoring
Report and has offered technical assistance to CAP of Lancaster in order to insure that these
types of deficiencies are not repeated in the future.

If you need any further information, or if we may be of further assistance, please do not hesitate
to contact our office at (717) 787-1984.

Sincerely,




Lynette M. Praster, Director
Center for Community Services

Cc: Mr. Champ Holman, Deputy Secretary, Community Affairs & Development, DCED




                                                   9

